  December 13, 2005




Financial Management
DoD Compliance with the
Government Performance and
Results Act of 1993
(D-2006-038)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

GAO                   Government Accountability Office
GPRA                  Government Performance and Results Act of 1993
OMB                   Office of Management and Budget
NDAA                  National Defense Authorization Act
QDR                   Quadrennial Defense Review
U.S.C.                United States Code
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                             ARI-INGTON, VIRGINIA 22202-4704




                                                                             December 13, 2005

dd




MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY

SUBJECT: Report on DoD Compliance with the Government Performance and Results
              Act of 1993 (Report No. D-2006-038)
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
DoD noncurred with the finding and recommendation. As a result of management
comments,
        We weare revised
                 providingthethis
                              Recommendation
                                  report for your to   the Underand
                                                    information   Secretary  of Defense
                                                                       use. The          for Policy.
                                                                                Under Secretary
WeDefense
of  do not request   additional
            for Policy            comments
                         did not respond    to because
                                               a draft ofwe intend
                                                          this     to however,
                                                               report; announcewe a subsequent
                                                                                     considered the
DoD   after DoD
audit official    issues a new
               coordinated        strategic
                             response   fromplan
                                               theinDirector
                                                     Februaryfor2006.   This auditand
                                                                 Administration    willManagement
                                                                                       follow-up
with the
when      deficiencies
      preparing         identified
                  the final report.inThe
                                       the complete
                                           report. text of the comments is in the
Management Comments section of the report.
        Questions should be directed to Mr. Marvin L. Peek at (703) 325-5777 or
Mr. David Rarnseyer at (703) 325-6120. See Appendix C for the report distribution. The
team members are listed inside the back cover.




                                  By direction of the Deputy Inspector General for Auditing:



                                            Paul J. ganetto, CPA
                                          Assistant Inspector General
                                      Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2006-038                                            December 13, 2005
 (Project No. D2005-D000FA-0143)

         DoD Compliance with the Government Performance and
                         Results Act of 1993

                                   Executive Summary

Who Should Read This Report and Why? DoD officials and staff responsible for
strategic and performance planning and reporting should read this report to better
understand the specific purposes and unique requirements of strategic planning under
Public Law 103-62, “Government Performance Results Act of 1993” (GPRA),
January 5, 1993.

Background. Congress enacted GPRA to provide for the establishment of strategic
planning and performance measurement in the Federal Government. Strategic plans,
annual performance plans, and annual program performance reports comprise the main
elements of GPRA. Together, these elements create a recurring cycle of planning,
program execution, and reporting.

DoD designated its 2001 Quadrennial Defense Review report to serve as its overall
strategic planning document required by GPRA. The purpose of the Quadrennial
Defense Review is to determine and express the defense strategy of the United States
consistent with the most recent National Security Strategy. To this end, DoD is required
to conduct a comprehensive, internal examination of the defense strategy and its
implications for force structure, modernization, infrastructure, and budget. At the
conclusion of the review, the Secretary of Defense is required to submit a report to
Congress.

Results. GPRA requires Government agencies to prepare strategic plans that incorporate
specific information. DoD designated the Quadrennial Defense Review report to be its
strategic plan without consideration of GPRA requirements. Specifically, the 2001
Quadrennial Defense Review report did not:

   •   cover all of the major functions and operations of DoD,

   •   include coordination with Congress and views of stakeholders,

   •   identify cross-agency programs and the commensurate goals that DoD is
       responsible for,

   •   include a mission statement that defined the basic purpose of DoD,

   •   include goals and objectives that allowed for direction and measurement,

   •   discuss the means and strategies to be used to meet goals and objectives,
   •   identify key external factors that could prevent achievement of goals, and

   •   identify the use of program evaluations in developing the report.

The Quadrennial Defense Review report did not comply with GPRA because the report
was prepared to satisfy the specific legislative requirements for a Quadrennial Defense
Review rather than those of GPRA. Although a separate GPRA strategic plan would be
the most effective way to satisfy the requirements of GPRA, incorporating the DoD
Strategic Plan into the QDR report is acceptable if DoD satisfies the requirements of
GPRA and OMB Circular A-11. Because the GPRA strategic plan did not contain all the
required data, DoD senior officials lacked the information necessary to improve the
efficiency and effectiveness of all DoD programs. Additionally, DoD was unable to
provide the President, Office of Management and Budget, and Congress with sufficient
information for measuring performance, making spending decisions, and overseeing all
DoD programs. (See the Finding section of the report for the recommendation.)

Management Comments. We issued a draft of this report on September 19, 2005. The
Under Secretary of Defense for Policy did not respond to the draft of this report.
However, the Directorate for Administration and Management provided official DoD
coordinated comments. DoD nonconcurred with the finding and recommendation. We
do not agree with DoD that the Quadrennial Defense Review report satisfies the
legislative requirements for a GPRA strategic plan. We do not request additional
comments because we intend to announce a subsequent audit which will follow-up with
the deficiencies identified in the report. We agree that the Quadrennial Defense Review
report can be used as the DoD GPRA strategic plan, but the report should fulfill the
legislative requirements of GPRA and subsequent implementation guidance in Office of
Management and Budget Circular A-11. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the compete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                         i


Background                                                               1

Objectives                                                               2

Finding
     DoD Strategic Plan Compliance with the Government Performance and
       Results Act of 1993                                                3

Appendixes
     A. Scope and Methodology                                            10
     B. Required Elements of a Strategic Plan                            11
     C. Report Distribution                                              16

Management Comments
     Directorate for Administration and Management                       19
Background
    Congress enacted the Government Performance and Results Act of 1993 (GPRA)
    to provide for the establishment of strategic planning and performance
    measurement in the Federal Government. Specifically, Congress enacted GPRA
    to improve:

       •     confidence of the American people in the Federal Government,

       •     program performance and public accountability,

       •     service delivery by managers,

       •     Congressional decision making, and

       •     internal management of the Federal Government.

    Strategic plans, annual performance plans, and annual program performance
    reports comprise the required elements of GPRA. Together, these elements
    create a recurring cycle of planning, program execution, and reporting. The
    figure below illustrates the specific relationship between the main elements of
    GPRA.
      Relationship of Main Elements of GPRA

           Strategic Plan           Performance Plan           Performance Report

                                 Performance                Actual
                                 Goal 1.1.1    Indicators                   Results
                                                            Performance
                 General         Performance                Actual
                                               Indicators                   Results
                 Objective 1.1   Goal 1.1.2                 Performance
                                 Performance                Actual
                                 Goal 1.1.3    Indicators                   Results
       General                                              Performance
       Goal 1                    Performance
                                               Indicators   Actual
                                 Goal 1.2.1                                 Results
                                                            Performance
                                 Performance                Actual
                 General                       Indicators                   Results
                                 Goal 1.2.2                 Performance
                 Objective 1.2
                                 Performance                Actual
                                 Goal 1.2.3    Indicators                   Results
                                                            Performance




    The strategic plan provides the framework for implementing all other parts of
    GPRA (for example, annual performance plans and annual program performance
    reports) and sets out a course of action and accomplishment over the long term.
    The strategic planning requirements of GPRA, as codified in section 306, title 5
    United States Code (5 U.S.C. 306) require DoD to submit an updated and revised


                                           1
             strategic plan for program activities every 4 years. Strategic plans contain
             general goals and objectives (see figure on previous page). General goals define
             how an agency will carry out its mission over a period of time. General
             objectives are paired with a general goal and can be used to help assess whether
             the general goal was (or is being) achieved. An objective usually describes a
             more specific level of achievement than a general goal.

             Complementing the strategic plan is the annual performance plan, which sets
             goals with measurable target levels of performance. The general goals and
             objectives in the strategic plan set the framework for developing annual
             performance plans (see figure on previous page). The annual program
             performance report compares actual performance to the annual goals using the
             indicators established in the annual performance plan. Together, the annual
             performance plan and program performance report define a course to improve the
             performance of Government programs and operations, and the basis for the
             Federal Government to manage results.

             Office of Management and Budget (OMB) Circular A-11, Part 2, “Preparation
             and Submission of Strategic Plans, Annual Performance Plans, and Annual
             Program Performance Reports,” provides implementation guidance for the
             requirements of GPRA.1 Specifically, OMB Circular A-11 provides submission
                                         PT




             schedules, definitions of key terms used in GPRA, and instructions for preparing
             and submitting strategic plans, performance plans, and performance reports.


Objectives
            Our overall audit objective was to determine whether DoD complied with the
            Government Performance and Results Act of 1993 and subsequent
            implementation guidance. The announced audit objective was to assess whether
            the DoD Strategic Plans, Performance Plans, and Performance Reports for
            FY 2004 and FY 2005 comply with the requirements of GPRA and subsequent
            implementation guidance. However, based on the deficiencies we found in the
            DoD Strategic Plan, we did not perform a detailed review of DoD Performance
            Plans and Performance Reports. See Appendix A for a discussion of the scope
            and methodology.




     1
TP   OMB updates Circular A -11 annually. References to OMB Circular A-11 in this report refer to the July
     2001 update, which was in effect for the 2001 DoD Strategic Plan. Part 6 of subsequent updates of
     Circular A-11 provides guidance for preparation and submission of strategic plans, annual performance
     plans, and annual program performance reports.



                                                       2
                   DoD Strategic Plan Compliance with the
                   Government Performance and Results
                   Act of 1993
                   DoD used its 2001 Quadrennial Defense Review (QDR) report to serve as
                   its overall strategic planning document required by GPRA. However, the
                   QDR report did not comply with GPRA because the QDR report was
                   prepared to satisfy only the specific legislative reporting requirements for
                   a QDR. As a result, DoD senior officials lacked the information necessary
                   to improve the efficiency and effectiveness of all DoD programs.
                   Additionally, DoD was unable to provide the President, Congress, and
                   OMB with sufficient information for measuring performance, making
                   spending decisions, and overseeing all DoD programs.


DoD Strategic Plan
           DoD uses its QDR report to serve as its overall strategic planning document
           required by GPRA.2 Appendix A of the 2001 QDR report identifies the specific
           sections of the QDR report that DoD has determined fulfill the requirements of
           GPRA for strategic plans.

           Public Law 106-65, “National Defense Authorization Act [NDAA] for FY 2000,”
           October 5, 1999, as amended and codified in 10 U.S.C. 118, requires DoD to
           conduct a QDR. The QDR is a comprehensive internal examination of specific
           elements of the defense program and policies of the United States, conducted
           every 4 years, with a view toward determining and establishing the defense
           strategy for the next 20 years.

           The NDAA for FY 2000 required DoD to submit the report on the 2001 QDR to
           the Senate and House Committees by September 30, 2001. Subsequent QDR
           reports are due no later than the submission of the President’s budget in February
           of the year following the QDR, which happens to be the second year of the
           President’s term in office.




2
    DoD identifies the QDR report as its overall strategic planning document required by GPRA.
    Accordingly, references in this report to the DoD Strategic Plan refer to the QDR report.



                                                     3
DoD Compliance with GPRA Strategic Planning Requirements
    In developing and updating a strategic plan, GPRA and OMB Circular A-11
    require agencies to take specific actions and address specific elements. The 2001
    DoD Strategic Plan did not comply with the GPRA and OMB strategic plan
    requirements as summarized below. See Appendix B for a more detailed
    discussion on the 2001 DoD Strategic Plan’s noncompliance with GPRA and
    OMB requirements for strategic plans.

    Major Functions and Operations. Agency strategic plans should cover the
    major functions and operations of the agency.

           DoD Compliance. The DoD Strategic Plan covered only the Military
           functions and operations of DoD, excluding, for example, significant
           civilian and management support activities.

    Congressional Coordination and View of Stakeholders. When developing and
    updating strategic plans, agencies should coordinate with the appropriate
    committees of the Senate and House of Representatives, other executive branch
    agencies, and key stakeholders.

           DoD Compliance. DoD did not solicit and incorporate the views of key
           stakeholders in updating its strategic plan.

    Cross-Agency Programs. Strategic plans should identify programs and activities
    that an agency shares responsibility with other agencies. Strategic plans should
    also specify the goals and objectives of the shared programs that the reporting
    agency is responsible for accomplishing.

           DoD Compliance. The DoD Strategic Plan did not include a discussion
           of programs and activities that DoD participated in with other agencies or
           the related goals and objectives.

    Mission Statement. Strategic plans should contain a comprehensive mission
    statement covering the major functions and operations of the agency.

           DoD Compliance. The DoD Strategic Plan did not contain a
           comprehensive mission statement that complied with implementation
           guidance in OMB Circular A-11. In addition, the existing mission
           statement was not easily identifiable in the plan.

    Goals and Objectives. Agencies should include sufficiently precise goals and
    objectives in their strategic plans to direct and guide agency staff and to allow for
    future assessment.

           DoD Compliance. The general goals in the DoD Strategic Plan were
           limited to a bulleted list without sufficient discussion to allow for
           direction and guidance of DoD staff. In addition, assessment of future
           achievement of the goals and objectives would be challenging.


                                          4
     Means and Strategies. Agency strategic plans should describe the processes,
     skills, technologies, and various resources, commonly called means and
     strategies, that it will use to achieve the general goals and objectives identified in
     the plan.

            DoD Compliance. The DoD Strategic Plan did not identify the means
            and strategies it will use to specifically achieve the goals and objectives
            discussed in the plan. Without means and strategies clearly aligned to the
            goals and objectives in the plan, DoD programs and activities could risk
            inadequate funding resources.

     Relationship with Performance Plan. Agencies should note the specific link
     between the general goals in their strategic plan and the performance goals in
     their annual performance plan.

            DoD Compliance. The DoD Strategic Plan did not discuss the specific
            relationship of the general goals with the performance goals. Without this
            link, Congress and DoD officials will not be able to accurately judge
            whether DoD is making progress toward achieving its long-term, general
            goals in the strategic plan.

     Key External Factors. Agency strategic plans should identify those key factors,
     external to the agency that could significantly affect the achievement of the
     general goals and objectives in the plan. In addition, the strategic plans should
     discuss how achievement of the goals could be directly and significantly affected
     by the factors.

            DoD Compliance. DoD did not specifically identify key external factors
            that could significantly affect achievement of the goals identified in the
            DoD Strategic Plan. In addition, DoD did not describe how goal
            achievement could be affected. Because external factors can invalidate
            assumptions that DoD initially used to develop its goals, information on
            these factors can be useful in setting goals and for explaining results,
            especially if goals are unmet, in the annual performance plans.

     Program Evaluations. The strategic plan should identify results of program
     evaluations used to develop the plan. In addition, agencies are required to include
     a schedule of program evaluations that will be completed during the coverage of
     the strategic plan.

            DoD Compliance. The DoD Strategic Plan did not identify the program
            evaluations that DoD used to develop the plan or a schedule for future
            evaluations.


Government Accountability Office Review of Strategic Plans
     In 1997, Congress requested that the Government Accountability Office (GAO)
     conduct a review of draft strategic plans submitted by Cabinet departments and



                                            5
                selected agencies.3 Many of the deficiencies identified by GAO in the draft 1997
                QDR report, as the DoD strategic plan, continued to exist in the 2001 QDR
                report. The GAO review of draft strategic plans of cabinet departments revealed
                that the DoD was the only agency that used an existing planning document to
                meet another requirement to fulfill its GPRA strategic plan requirements. Other
                agencies prepared documents specifically to meet the requirements of GPRA. In
                response to GAO’s findings, DoD officials agreed that the DoD Strategic Plan
                could be improved in some respects. In addition, DoD officials explained that as
                the DoD planning processes moves forward, DoD would consider the suggestions
                made by GAO.


Quadrennial Defense Review Report as the DoD Strategic Plan
                The noncompliance with GPRA occurred because the QDR report was prepared
                to satisfy the specific legislative reporting requirements for a QDR without
                consideration of GPRA requirements. Specifically, the QDR report was prepared
                to satisfy the reporting requirements of the NDAA for FY 2000, as amended and
                codified in 10 U.S.C. 118, and was subsequently designated as the DoD Strategic
                Plan.

                Quadrennial Defense Review. According to the NDAA for FY 2000, the
                purpose of the QDR is to determine and express the defense strategy of the United
                States consistent with the most recent National Security Strategy. To this end, the
                Secretary of Defense, in coordination with the Chairman of the Joint Chiefs of
                Staff, is required to conduct a comprehensive, internal examination of the defense
                strategy and its implications for force structure, modernization, infrastructure, and
                budget. The NDAA for FY 2000 also required DoD to address 13 specific issues,
                such as assumptions used in the review and manpower and sustainment policies
                required under the national defense strategy. At the conclusion of each QDR, the
                Secretary of Defense is required to submit a report to the Committees on Armed
                Services of the Senate and House, which includes the results of the review and a
                comprehensive discussion of the national defense strategy of the United States.

                Government Performance and Results Act. Conversely, the purpose of GPRA
                is to improve the performance of Government programs and provide a basis for
                the Federal Government to manage results. In this context, the strategic plan
                under GPRA lays the foundation for implementing all other GPRA requirements
                and establishes a course of action and accomplishment over the long term. By
                forging a strong link between resources and performance, these plans and reports
                should show what is being accomplished with money that is spent. Accountability
                for the levels of performance actually achieved is another key feature of GPRA.

                The requirements for a strategic plan in GPRA and for the QDR report have
                distinctly different legislative purposes that prevent the QDR report from serving
                as the DoD Strategic Plan as required by GPRA. As the QDR report is currently
3
TP   PT   GAO/NSIAD -97-219R, “The Results Act: Observations on DoD’s Draft Strategic Plan,” August 5,
          1997.




                                                         6
    developed, a separate document would be more effective in meeting the
    requirements of GPRA and OMB Circular A-11; however, DoD could use the
    QDR results as input for a separate GPRA strategic plan. Such a plan would
    sufficiently provide the information required for key stakeholders to accurately
    measure performance, perform effective program oversight, and make informative
    spending decisions regarding DoD programs.


2005 DoD Strategic Plan
    The strategic plan requirements of GPRA, as amended and codified in
    5 U.S.C. 306, require DoD to update and revise the strategic plan no later than
    four years from the date of the previous strategic plan. Because DoD issued the
    2001 DoD Strategic Plan on September 30, 2001, it is required to issue a revised
    and updated strategic plan by September 30, 2005. However, QDR legislation, as
    codified in 10 U.S.C. 118, allows DoD to issue the QDR report no later than the
    first Monday in February, the date on which the President submits the budget to
    Congress for the next fiscal year, February 2006. Accordingly, if the 2005 QDR
    report is designated as the DoD updated Strategic Plan, it will not meet the update
    period required by GPRA.

    We are issuing this report to provide DoD management with timely information
    for the 2005 DoD Strategic Plan. If left uncorrected, the deficiencies identified in
    the 2001 DoD Strategic Plan (which also existed in the 1997 Strategic Plan) will
    adversely affect the 2005 Strategic Plan. Specifically, the 2005 Strategic Plan
    will not comply with the requirements of GPRA and OMB Circular A-11, and
    related performance plans and reports based on the plan will provide the
    President, OMB, Congress, and DoD officials insufficient performance
    information for the next 4 years.


Conclusion
    As a result of the DoD 2001 Strategic Plan’s noncompliance with GPRA and
    OMB Circular A-11, DoD senior officials lacked the information necessary to
    improve the efficiency and effectiveness of DoD programs. In addition, the 2001
    DoD Strategic Plan did not provide sufficient information to the President, OMB,
    and Congress for measuring performance, making spending decisions, and
    overseeing DoD programs because the 2001 Strategic Plan did not comply with
    GPRA.

    The annual DoD Performance Plans and Program Performance Reports will
    inherently not comply with the commensurate requirements of GPRA and OMB
    Circular A-11 until DoD corrects the deficiencies in the DoD Strategic Plan. The
    strategic plan required by GPRA provides the framework for implementing all
    other parts of GPRA and sets out a course of action and accomplishment over the
    long term. Accordingly, DoD will continue to provide key stakeholders with
    insufficient performance information for DoD programs and activities.



                                         7
Management Comments on the Finding and Audit Response
The Directorate for Administration and Management provided DoD official coordinated
comments on the finding. For the full text of Directorate of Administration and
Management comments, see the Management Comments section of the report.

       Management Comments. The DoD coordinated comments state that the draft
       report improperly concludes that DoD is noncompliant with the requirements of
       GPRA.

       Audit Response. Based on the deficiencies we found in the DoD Strategic Plan,
       we did not perform a detailed review of DoD compliance with all parts of GPRA.
       Accordingly, the report only concluded that the 2001 QDR report did not comply
       with GPRA.

       Management Comments. Management comments stated that the report’s
       conclusion fails to acknowledge DoD interactions with OMB on the interpretation
       of GPRA guidance in OMB Circular A-11 and the efforts with stakeholders on
       how to best implement GPRA within DoD.

       Audit Response. The Director for Force Planning and QDR Support, in the
       Office of the Under Secretary of Defense for Policy, explained that the QDR is an
       internal examination of defense programs and polices; therefore, coordination
       outside of DoD is not a part of the QDR process.

       Management Comments. Management comments stated that DoD has annually
       submitted the complementary GPRA performance plans and reports to provide
       the leadership with the tools to support performance-based decision making.

       Audit Response. Annual GPRA performance plans and reports are an execution
       and reporting of, not a complement to, the strategic plan. As a result, deficiencies
       in the DoD Strategic Plan cause the annual DoD Performance Plans and Program
       Performance Reports to inherently provide insufficient program performance
       information.

       Management Comments. Management comments state that the report
       improperly concludes that the QDR was used to satisfy the legislative
       requirements for the QDR rather than those of GPRA. Management explained
       that the DoD approach has always been that the QDR satisfies both the legislative
       requirement for a review of the defense strategy and the requirement for a GPRA
       strategic plan.

       Audit Response. The Director for Force Planning and QDR Support explained
       that GPRA requirements were not considered during the development of the QDR
       report. Instead, the QDR report is developed to meet the reporting requirements
       of QDR legislation as implemented in the “Terms of Reference” for the QDR;
       neither the legislation nor the “Terms of Reference” incorporate GPRA Strategic
       Plan requirements.




                                            8
Recommendation, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    the draft recommendation to clarify our intentions for DoD to comply with the
    requirements for GPRA strategic plan.

    We recommend that the Under Secretary of Defense for Policy develop a
    strategic plan (either in a separate document or using the Quadrennial
    Defense Review report) which follows the requirements of the Government
    Performance and Results Act of 1993 and subsequent implementation
    guidance in Office of Management and Budget Circular A-11.

    Management Comments. Management did not concur with the draft
    recommendation. DoD believes that the use of the QDR as a vehicle for
    transmitting the DoD Strategic Plan is consistent with the intent of Congress.
    However, management acknowledges that the draft report provided useful
    insights into areas where they can further improve the 2005 QDR report.
    Management also acknowledges that there are opportunities to improve the
    linkage between the DoD Strategic Plan, Performance Plans, and Performance
    Reports to increase transparency and improve performance management.

    Audit Response. Although it is our position that a separate GPRA strategic plan
    would best correct the deficiencies identified in the report, we agree with
    management that the QDR could be an appropriate vehicle for transmitting the
    DoD Strategic Plan. However, the QDR report would have to fulfill the
    legislative requirements and implementation guidance for both a QDR report and
    a GPRA strategic plan. Management did not demonstrate how it intends to satisfy
    the specific deficiencies we addressed in our report because management believes
    that the 2001 QDR report complies with the requirements for a GPRA strategic
    plan. We do not request additional comments because we intend to announce a
    subsequent audit which will review the new strategic plan which is scheduled to
    be published by the end of February 2006. This planned audit will follow-up with
    the deficiencies identified in the report.




                                        9
Appendix A. Scope and Methodology
     We reviewed the Department of Defense “Quadrennial Defense Review Report,”
     September 30, 2001, for compliance with Public Law 103-62, “Government
     Performance and Results Act of 1993,” January 5, 1993, as codified in
     5 U.S.C. 306. We also reviewed the QDR report for compliance with
     implementation guidance provided in OMB Circular A-11, Part 2, “Preparation
     and Submission of Strategic Plans, Annual Performance Plans, and Annual
     Performance Reports, July 2001. Furthermore, we examined Public Law 106-65,
     “National Defense Authorization Act for FY 2000,” October 5, 1999, as codified
     and amended in 10 U.S.C. 118 and Public Law 107-314, “Bob Stump National
     Defense Authorization Act for FY 2003,” December 2, 2002, as codified and
     amended in 10 U.S.C. 118.

     The scope of the audit was limited in that we did not review the management
     control program. In addition, we did not review the related annual performance
     plans and performance reports, which were originally announced as objectives,
     because the deficiencies identified in the 2001 QDR report as the DoD Strategic
     Plan were of such a pervasive nature. We limited our audit to review only the
     DoD Strategic Plan for compliance with GPRA and OMB Circular A-11 so that
     we could provide timely information to DoD.

     We interviewed personnel responsible for formulating policy for the QDR at the
     Office of the Under Secretary of Defense for Policy, specifically the Force
     Planning and QDR Support Team. We also coordinated with personnel at the
     Offices of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
     and the Director, Program Analysis & Evaluation.

     This audit was performed from March 2005 through August 2005 in accordance
     with generally accepted government auditing standards for performance audits.

     Use of Computer-Processed Data. We did not use computer-processed data to
     perform this audit.

     Government Accountability Office High-Risk Area. The Government
     Accountability Office has identified several high-risk areas in DoD. This report
     provides coverage of the Defense Financial Management high-risk area.

Prior Coverage
  No prior coverage has been conducted on DoD compliance with the Government
  Performance and Results Act of 1993, during the last 5 years.




                                         10
Appendix B. Required Elements of a Strategic
            Plan
   The following discusses the required elements of a strategic plan, as specifically
   described in GPRA, with implementation guidance from OMB Circular A-11, and
   the deficiencies in the 2001 DoD Strategic Plan.

   Major Functions and Operations. OMB Circular A-11 requires agency
   strategic plans to cover the major functions and operations of the agency.
   Performance goals and indicators in the annual performance plan are required to
   cover every program activity in the Program and Financing Schedules in the
   Budget Appendix. Accordingly, a strategic plan should cover the program
   activities included in the Program and Financing Schedule in the Budget
   Appendix because the general goals and objectives are the basis for the
   performance goals and indicators in the annual performance plan.

          DoD Compliance. The 2001 DoD Strategic Plan covered only the
          Military functions and operations of DoD; excluding, for example,
          significant civilian and management support activities. In addition to
          Army, Navy, and Air Force (Military functions), the 2001 DoD Budget
          identified numerous program activities that were not covered in the 2001
          DoD Strategic Plan. For example, the following list illustrates activities in
          the 2001 DoD Operations and Maintenance Budget that were not covered
          in the DoD Strategic Plan:

               •   defense health programs;

               •   drug interdiction and counterdrug activities;

               •   overseas humanitarian, disaster, and civic aid;

               •   depot maintenance;

               •   environmental programs;

               •   management headquarters; and

               •   training and education.

   Congressional Coordination and View of Stakeholders. During the
   development of an agency’s strategic plan, the agency is required to consult with
   relevant Congressional committees, coordinate with other executive agencies as
   appropriate, and to solicit and incorporate views of key stakeholders.

          DoD Compliance. The QDR is an internal examination of defense
          programs and polices; therefore, coordination outside of DoD is not a part
          of the QDR. The NDAA for FY 2000 and the Secretary of Defense
          determined the subject areas for review during the 2001 QDR and
          disseminated the areas for review to seven internal integrated project


                                        11
       teams through the “Terms of Reference.” The review results to be
       included in the QDR were determined by an internal executive working
       group, which was led by a special assistant to the Secretary of Defense
       and included the head of each of the project teams, and an internal senior-
       level review group, which consisted of the Secretary of Defense, the
       secretaries of the Military Services, the Joint Chiefs of Staff, the Under
       Secretaries of Defense, and the special assistant to the Secretary of
       Defense.

Cross-Agency Programs. Agencies are required to coordinate with other
executive agencies, as appropriate, to identify any cross-agency functions,
programs, or activities that should be discussed in the strategic plan. In such
instances, agencies may have a shared responsibility for defining and achieving
general goals and objectives in these cross-agency areas.

       DoD Compliance. The 2001 DoD Strategic Plan did not identify any
       cross-agency functions, programs, or activities in which DoD was
       involved or for which it would be responsible for defining and achieving
       general goals and objectives. However, other agencies’ strategic plans
       identified DoD as participating in cross-agency programs. For example,
       the Department of Treasury Strategic Plan identifies DoD as a partner in
       “preserving the integrity of financial systems” and “managing the
       Government’s finances effectively.” In addition, the Department of
       Commerce reports that DoD (specifically the Air Force) assists its
       International Trade Administration with industry expertise for trade events
       involving aircraft sales. The 2001 DoD Strategic Plan did not identify the
       above cross-agency activities with the Department of Treasury or the
       Department of Commerce.

Mission Statement. GPRA and OMB Circular A-11, Section 2, require agency
strategic plans to contain a comprehensive mission statement. The mission
statement should be brief, defining the purpose of the agency, with particular
focus on core programs and activities.

       DoD Compliance. The mission statement as identified in the 2001 DoD
       Strategic Plan does not comply with the requirements of GPRA as
       implemented by OMB Circular A-11. The mission statement in the DoD
       Strategic Plan is:

              The mission of the United States Armed Forces is to defend
              the United States; deter aggression and coercion forward in
              critical regions; swiftly defeat aggression in overlapping
              major conflicts while preserving for the President the
              option to call for a decisive victory in one of the conflicts-
              including the possibility of regime change or occupation;
              and conduct a limited number of smaller-scale contingency
              operations.

       The mission statement above only addresses the U.S. Armed Forces.
       However, Congress established the Department of Defense to provide a
       comprehensive program for the future security of the United States and


                                    12
       integrate the administrative functions of the armed forces. In addition to
       military and national security functions, the purpose of DoD as codified in
       50 U.S.C. 401 also provides for:

           •   establishment of integrated policies and procedures for the
               departments, agencies, and functions of the Government relating to
               the national security;

           •   eliminating unnecessary duplication, particularly in the field of
               research and engineering by vesting overall direction and control
               in the Secretary of Defense; and

           •   more effective, efficient, and economical administration.

       Because the purpose of DoD is defined in statute, the mission statement in
       the strategic plan should be consistent with that purpose. The DoD
       Strategic Plan mission statement does not cover the functions identified
       above, which are among the purposes of DoD as codified in 50 U.S.C.
       401.

       In addition to the deficiencies identified above, the mission statement in
       the DoD Strategic Plan was not easily identifiable, and the strategic plan
       provided contradictory references to the DoD mission statement.
       Appendix A to the QDR report stated, “Section III, ‘Defense Strategy,’
       gives the Department’s comprehensive mission statement.” However,
       Section III is titled “Paradigm Shift in Force Planning,” and “Defense
       Strategy” is found in Section II. Accordingly, the average reader of the
       2001 DoD Strategic Plan would be misdirected and might not accurately
       identify the DoD mission statement.

Goals and Objectives. According to GPRA and OMB Circular A-11, agency
strategic plans should contain one or more general goals and objectives. The
general goals and objectives, which should elaborate on how the agency is
carrying out its mission, often are outcome-type goals. The general goals and
objectives should be sufficiently precise to direct and guide agency staff toward
actions that fulfill its mission. Agencies should state general goals and objectives
in a manner that allows for future determination of whether the goals were (or are
being) achieved. In addition, the general goals and objectives should outline
planned accomplishments and the schedule for completing them.

       DoD Compliance. The 2001 DoD Strategic Plan differentiates between
       general goals and Defense Policy Goals. The general goals, as identified
       by Appendix A of the plan, are found under the section heading, “U.S.
       Interests and Objectives,” and are each accompanied by objectives.
       However, the goals and ancillary discussion are not precise enough to
       direct and guide DoD staff and to allow for future assessment of
       accomplishments, as required by OMB Circular A-11. The Defense
       Policy Goals are found in the 2001 DoD Strategic Plan under Section II,
       “Defense Strategy,” and are accompanied by sufficient discussion to direct
       and guide DoD staff; however, the policy goals did not include objectives
       as required by OMB, which assist in determining whether the goals are


                                     13
       being met. In addition, the general goals and objectives did not outline
       planned accomplishments or include a schedule for completing them.

Means and Strategies. Agency strategic plans are required to describe the
processes, skills, technologies, and various resources that the agency will use to
achieve the general goals and objectives (means and strategies). In addition,
OMB Circular A-11 requires strategic plans to include:

   •   schedules for initiating or completing significant actions, and any
       underlying assumptions or projections;

   •   a brief description of steps being taken to resolve mission-critical
       management problems; and

   •   an outline of the process for communicating goals and objectives
       throughout the agency, and for assigning accountability to managers and
       staff for achievement of objectives.

       DoD Compliance. The 2001 DoD Strategic Plan did not discuss the
       means and strategy that DoD would use to achieve the general goals and
       objectives included in the plan consistently and adequately. Conversely,
       the strategic plan included a general discussion on resources needed and
       strategies to transform DoD; however, the discussions were not aligned to
       goals identified in the plan. In addition, the 2001 DoD Strategic Plan did
       not include schedules for significant actions, steps DoD is taking to
       address management problems, and an outline of communicating and
       assigning accountability for goals and objectives.

Relationship with Performance Plan. GPRA and OMB Circular A-11 require
agencies to note the specific link between general goals and objectives in the
strategic plans and performance goals and indicators in the annual performance
plans. Specifically, a strategic plan should briefly outline the type, nature, and
scope of the performance goals being included in annual performance plans. In
addition, the strategic plan should describe how the performance goals relate to
the strategic goals and how the performance goals are used to determine strategic
goal achievement.

       DoD Compliance. The 2001 DoD Strategic Plan did not identify the
       relationship between the performance goals included in the annual
       performance plan and the general goals in the plan. Appendix A to the
       2001 Strategic Plan merely states that the risk framework identified in the
       plan will be used as the framework for the goals in the DoD Performance
       Plans. However, this statement fails to specify the link between the
       general goals in the 2001 DoD Strategic Plan with the performance goals
       in the annual performance plans.

Key External Factors. Key factors are often called external factors because they
are introduced by external forces or parties and are not of the agency’s own
making. The factors may be economic, demographic, social, or environmental,
and they may remain stable, change within predicted rates, or vary to an
unexpected degree. Achievement of goals can also depend on the action of


                                     14
Congress, other Federal agencies, States, local governments, or other non-Federal
entities. According to GPRA and OMB Circular A-11, agencies are required to
identify those factors beyond their control that could prevent the agency from
achieving the general goals and objectives in the strategic plan. If agencies
cannot identify key factors, a statement of such should be included in the strategic
plan.

       DoD Compliance. As with the means and strategies, DoD identifies
       broad external factors that could adversely affect DoD as a whole, but
       does not identify external factors that could affect the achievement of the
       general goals included in the 2001 DoD Strategic Plan. OMB Circular
       A-11 also requires DoD to discuss the effect of being unable to achieve
       certain goals because of factors beyond its control. Such discussion was
       not included in the strategic plan.

Program Evaluations. Agencies are required to identify the results of program
evaluations used to develop their strategic plans within the plan. In addition,
OMB Circular A-11 requires agencies to include a schedule of program
evaluations that will be completed during the coverage of the strategic plan. If
program evaluations are not scheduled to be completed during the coverage of the
plan, agencies are required to state such in the strategic plan.

Program evaluations are a potentially critical source of information for Congress
and others in ensuring the validity and reasonableness of goals and strategies, as
well as for identifying factors likely to affect performance. Such information can
also be useful in explaining the results in the agency’s annual performance reports
including, when applicable, the reasons annual performance goals were not met
and identifying appropriate strategies to meet unmet goals.

       DoD Compliance. The DoD Strategic Plan did not identify program
       evaluations used or a schedule for future evaluations. In addition, DoD
       did not include a statement that program evaluations were not used in
       developing the plan or that future program evaluations (during the period
       covered by the plan) will not be conducted.




                                     15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
   Deputy Assistant Secretary of Defense for Plans and Resources
Director, Administration and Management
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Auditor General, Department of the Navy

Department of the Army
Auditor General, Department of the Army

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform



                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
DoD Coordinated Comments
                           Final Report
                            Reference




                           We revised
                           the
                           recommend-
                           ation




                   19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Marvin L. Peek
David J. Ramseyer
Michael D. Durda
Joseph M. Calise
